CERTIFICATE OF COMPLIANCE
No.

IN THE

SUPREME COURT of the UNITED STATES

ROGER DEAN WALDNER,
Petitioner,
v.
BRADLEY R. HARTKE; DOUGLAS P. HARTKE; JOAN L. HARTKE,
INDIVIDUALLY AND AS TRUSTEES OF THE JOAN L. HARTKE QTIP MARITAL
TRUST DATED 7/12/1996 AND AS TRUSTEES OF THE ROBERT EUGENE
HARTKE FAMILY TRUST DATED 7/12/1996; THE JOAN L. HARTKE QTIP
MARITAL TRUST DATED 7/12/1996; THE ROBERT EUGENE HARTKE FAMILY
TRUST DATED 7/12/1996,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 3,134 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 1, 2020

Roger Dean Waldner

